DOE F 1325.8
(08-93)
United States Government                                                             Department of Energy

memorandum
       DATE     February 2, 2007
   REPLY TO
   AT~NOF       IG-40

    SUBJECT:    Letter Report on "Alleged Loss or Theft of Personally Identifiable Infonnation at Pantex,"
                INS-L-07-05 (S06IS037)

          TO.   Manager, Pailtex Site Office

                This is to advise you of the results of an Office of Inspector General (OIG) inspection of an
                alleged loss or theft of personally identifiable information at the National Nuclear Security
                Administration's (NNSA's) Pantex Plant.

                BACKGROUND

                Under the Immigration Reform and Control Act of 1986, as amended by the Immigration and
                Nationality Act, all United States (U.S.) employers are required to obtain and retain
                information concerning each employee's eligibility to work in the U.S. The information to
                be collected generally consists of the employee's social security number, address, date of
                birth, and other personally identifiable information sufficient to make an eligibility
                determination. At the time of employment, the information is to be recorded on Fornl I-9,
                Employment Eligibility Verification. Federal law requires that these forms be retained for
                three years after the date of hire or one year after the employment is terminated, whichever is
                later. Failure to comply with Federal Law requirements associated with 1-9 forms inay result
                in civil penalties against the enlployer.

                On May 5,2006, U.S. Immigration and Customs Enforcement (ICE), a branch of the
                Department of Homeland Security, issued a letter to BWXT Pantex, the management and
                operating contractor at the Pantex Plant, requiring the production of original 1-9 forms for
                "all current and non-current employees [at the Pantex Plant] for the past 18 months." On
                May 30,2006, the OIG received an allegation that BWXT sent over 400 employees home to
                retrieve copies of personal identification such as birth certificates, driver's licenses, and
                social security cards because it was discovered that parts of their employment records were
                "either lost or stolen." The complainant identified the missing records as the employees' 1-9
                forms and expressed concern the missing personal information could result in identity theft
                or the creation of false documentation to gain unauthorized access into the Pantex Plant. The
                complainant alleged that these records may have been missing since 2004 and that none of
                the individuals affected had been notified of the loss of hislher personal information.

                The OIG initiated this inspection to deternline whether: (1) 1-9 fonns containing personally
                identifiable information were lost or stolen; and (2) BWXT Pantex had adequate internal
                controls for the management and retention of 1-9 forms.
RESULTS OF INSPECTION

We could not reach a definitive conclusion regarding whether 1-9 forms were lost or stolen
from Pantex. We were able to conclude that the site had significant internal control
weaknesses in the management and retention of 1-9 fonns. We detem~inedthat in May 2006
BWXT could not locate 442 1-9 forms that should have been on file for current and
terminated einployees hired between November 1986 and April 2006. There is evidence
indicating that BWXT's inability to locate the 1-9 forms may have been, at least in part, due
to three factors: the possible premature destruction of files; a misunderstanding of record
retention requirements; and the possible failure of BWXT to verify employment eligibility
for einployees who transferred to Pantex from other sites.

After the May 5, 2006, ICE request for 1-9 forms, BWXT identified that 1-9 forms were not on
file for 442 employees. It was BWXT's practice to store 1-9 forms in binders kept in cabinets
in the human resources office. Routine access to the office was generally limited to individuals
working for human resources. There is soine evidence that forms may have been destroyed
prematurely through shredding or other means. BWXT management told us that "red badge"
(uncleared) employees working in the Employment Office occasionally were used to shred
documents. A BWXT employee told us that she remembered seeing a red badge en~ployee
shredding 1-9 forms. We identified this red badge employee and interviewed her regarding the
matter. She said that she worked at the site between April and August 2002 and that it was
possible that she shredded official documents. She remembered being told to shred some
documents, and she also said that she placed other documents into boxes to be stored or
destroyed by other means. However, she could not specifically recall whether any of these
docun~entswere 1-9 forms. We determined that 407 of the 442 involved employees were hired
prior to August 2002, so if 1-9 forms had been created for these individuals, they potentially
could have been disposed of by the red badge employee.

Regarding record retention requirements, BWXT's Records Inventory and Disposition
Schedule (RIDS) did not correctly state the legal requirements for retaining 1-9 forms.
Specifically, a February 2000 RIDS stated "Destroy 3 years after [termination] of employee."
The disposition instructions were changed in October 2003 to state "Destroy when 3 yrs.
old." Neither was consistent with the requirement to retain the forms for three years after the
date of hire or one year after the employn~entis terminated, whichever is later. The February
2000 instructions, if followed, should not have resulted in the premature destruction of 1-9
fonns; however, the October 2003 instructions, if followed, could have resulted in the
premature destruction of records.

Regarding BWXT7spossible failure to verify employment eligibility for employees who
transferred in from other sites, we were told that the BWXT Human Resources Department
may have failed to obtain 1-9 information from some employees because responsible
personnel may have mistakenly believed that the information did not need to be collected
from employees holding "Q" clearances who were hired froin other DOE sites. Information
provided by BWXT reflects that 11 of the 442 employees whose 1-9's could not be located
were hired from other DOE sites.
It should be noted that, at the time we initiated our inspection, BWXT had opened its ow11
investigation to determine the cause of the missing 1-9 forms. This investigation concluded
that "a high probability exists that the Company prematurely destroyed 1-9 docuinents and
failed to collect the informatioil in some instances." The BWX'T investigation found that
there was a general misuilderstanding as to when the doculnents could be destroyed and that
BWXT failed to obtain 1-9 information froin employees entering the Pantex workforce from
other DOE sites.

According to the BWXT Investigation Report, BWXT held meetings to discuss the 1-9 matter
and developed a remedial action plan to ensure that future employment eligibility documents
are collected, verified, and retained in accordance with Federal law. A "legal hold" was
placed on all I-9's, prohibiting the disposal of any 1-9 documentation, and a desktop
procedures document was issued that addressed processing of 1-9 forms. This procedure
stated that these forms were to be disposed of in accordance with Federal Law and RIDS, and
we were told that BWXT modified the RIDS to conform to the record retention requirements
of the Federal Law. The Investigation Report also stated that ICE is still reviewing BWXT's
1-9 docuinents and that BWXT anticipates it wiil take several months for the agency to reach
its conclusions and impose any civil penalties.

While it appears that a lack of strict adherence to Federal law for the collection and retention
of 1-9 fornls contributed to the inability of BWXT Pantex to locate the 442 1-9 forms that
should have been on file for current and terminated employees, our inspection could not
preclude the possibility that some 1-9 forms were either lost or stolen. At this point in time,
however, we do not have knowledge of any individual's personally identifiable information
being compromised.



Based on the results of our inspection, we recommend that the Manager, Pantex Site Office,
ensures that:

    1. BWXT appropriately obtains citizenship information and docun~entsit on 1-9 forms.

    2. BWXT has adequate physical storage and access control policies and procedures for
       employees' 1-9 forms to ensure they are appropriately safeguarded.

    3. Individual employees are notified if there is a possibility that their 1-9 forms were lost
       or stolen.

    4. BWXT con~plieswith the Federal law 1-9 record retention requirements.

In addition, we believe that any fines levied by ICE should be reviewed for allowability.
Therefore we reconlmend that the Manager, Pantex Site Office:

    5 . Ensures the contracting officer inakes an allowability determination if ICE imposes
        any civil penalties on BWXT.
MANAGEMENT REACTION

In comii~entson a draft of this report, NNSA indicated that actions are being taken to address
our recommendations. NNSA's comments are included in their entirety as an appendix to
this report. We found management's comments to be responsive to our recommendations.
All the recoinmendations are open and need to be tracked in the Departmental Audit Report
Tracking System.

This inspection was conducted in accordance with the "Quality Standards for Inspections"
issued by the President's Council on Integrity and Efficiency. If you have any questions
concerning this matter, please contact me at (202) 586-4109.




                                              for ~nuesti~ations
                                                              and Inspections

cc: Deputy Secretary
    Administrator, National IVuclear Security Administration
    Chief of Staff
    Chief Information Officer
    Chief Health, Safety and Security Officer
    Director, Policy and Internal Controls Management (NA-66)
    Director, Office of Internal Review (CF-1.2)
Appendix
                                 --




                                Department of Energy
                         National Nuclear Security Administration
                                 Washington, DC 20585
                                   January 2 9 , 2007



       MEMORANDUM FOR                Chnstopher R. Sharpley
                                     Deputy
                                       . -Inspector.           General
                                       for I n v e s t i g a t i o 2 &

       FROM:                         Michael C. Kane                )---I-

                                     Associate ~ d m i h s t r a t


       SUBJECT:
                                       for Management a d Administration

                                     Comments to IG Draft Letter Report on
                                                                                      r'
                                     Pantex's Loss of Personal Identifying
                                     Information; S061S037/2006-3 1389


       The National Nuclear Security Administration (NNSA) appreciates the
       opportunity to review the Inspector General's (IG) d n f l report, "Alleged
       Loss or Thefl o f Personal Identifying Information at Pantex." We
       understand that this is a drafl allegation based inspection report based on
       an allegation that BWXT Pantex had lost some "fonus" hat contained
       personal information. NNSA is scrious about protecting the personal
       information of its employees, and managemcnl will continue working will1
       our sites to improve accounting procedures.

       We thank the IG for their work and also understand that whilc there is no
       indication the forms were lost or stolen, the IG did conclude that there are
       weaknesscs in the management and retention oP the forms. It is based on
       thal coilclusion that recommendations have been madc and we provide the
       following specific comments.

               Regarding obtaining citizcnship information - The Site Officc is
               working with the Contractor to ensure that the appropriate changcs
               to the practices and procedurcs are made.
               Regarding having adequate physical storage and acccss control
               policies and procedurcs - The Site Office is working with the
               Contractor on changing the existing policies and procedurcs in
               ordcr to preclude any further events of this type.
               Regarding employee notification -while we agree with the
               recommendation and will ensure employees are notified, we do not
               have evidence that the subject forms were lost or stolen. Equally,
               nonc of the identified employees have prdvided any indication of
               identity theft or any other issues that might arise from tlie forms
               bcing stolen or lost.



                                @   Pr,rrfe<jr , j t ,   soy Ink of! recycled paper
Appendix                                                                          (continued)




             Regarding thc record retention requirement - The Site Officc,
             appropriately, has presented the problem o r thc differences
             between the Department's Administrative Schedule and the
             General Record Schedule, which is published by the National
             Records and Archives Administration, to the NNSA Chief
             Infomiation Officer for reconciliation and guidance.
             Regarding cost allowability dclermination - Should ICE
             (Immigration and Customs Enforcement) impose any civil
             penalties on the Contractor, the Contracting Officer will conduct
             an allowability of cost review and will make a cost determination.

      Should you have any questions about this response, please contact Richard
      Speidel, Director, Policy and Internal Controls Management.

      cc:    Manager, Pantex Site Office
             Senior Procurement Executive
             Dii-dctoi-, Szl-b-i~cCci~tcl.
